                                                                             Report No. DODIG-2014-046




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              MARCH 24, 2014




                     Independent Auditor’s Report on
                     the Examination of DoD Execution of
                     North Atlantic Treaty Organization–
                     Contributing Countries’ Donations
                     to Afghan National Army Trust Fund




I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                     March 24, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
               	 CHIEF FINANCIAL OFFICER, DOD
               COMMANDING GENERAL, COMBINED SECURITY TRANSITION
               	 COMMAND–AFGHANISTAN

SUBJECT:	 Independent Auditor’s Report on the Examination of DoD Execution of
          North Atlantic Treaty Organization–Contributing Countries’ Donations to
          Afghan National Army Trust Fund (Report No. DODIG-2014-046)

We are providing this report for your information and use. We performed the examination in
response to a request from the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD (OUSD[C]/CFO). We examined whether receipts and expenditures were
fairly presented for the North Atlantic Treaty Organization (NATO) Afghan National Army (ANA)
Trust Fund contributions added to the U.S. Government Afghanistan Security Forces Fund (ASFF)
as of March 31, 2013.  We identified material internal control weaknesses related to the financial
reporting processes and noncompliance with laws and regulations. Although internal control
weaknesses existed, for the sampled projects, we did not identify internal control weaknesses
within the cash collection process for the NATO contributions received and did not identify any
instances where the donor country contributions were applied to contracts that conflicted with
the donors’ intent.

We considered management comments on a draft of this report when preparing the final report.
Comments from OUSD(C)/CFO, the Combined Security Transition Command–Afghanistan (CSTC-A),
and the Defense Finance and Accounting Service conformed to the requirements of DoD
Directive 7650.3; therefore, we do not require additional comments. At the request of the
U.S. Commanding General, CSTC-A, we redirected all recommendations reflecting North Atlantic
Treaty Organization Training Mission-Afghanistan/CSTC-A, to reflect only CSTC-A.

We appreciate the courtesies extended to the staff.  Please direct questions to me at (703) 604-8905.




	 Amy J. Frontz, CPA
	 Principal Assistant Inspector General
		 for Auditing



                                                                                         Report No. DODIG-2014-046
                                                  INSPECTOR GENERAL
                                                DEPARTMENT OF DEFENSE
                                                4800 MARK CENTER DRIVE
                                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                                                     February 4, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
               	 CHIEF FINANCIAL OFFICER, DOD

SUBJECT:	 Independent Auditor’s Report on the Examination of DoD Execution of North Atlantic
          Treaty Organization–Contributing Countries’ Donations to Afghan National Army
          Trust Fund (Project No. D2013-D000FL-0056.000)

We were engaged to examine whether receipts and expenditures were presented fairly in
the accompanying Financial Statement1 of the North Atlantic Treaty Organization (NATO)
Afghan National Army (ANA) Trust Fund contributions added to the U.S. Government
Afghanistan Security Forces Fund (ASFF) through March 31, 2013 (financial schedule).
The Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD,
(OUSD[C]/CFO) is responsible for the financial schedule of the NATO ANA Trust Fund
contributions. The OUSD(C)/CFO and NATO Training Mission–Afghanistan (NTM-A)/Combined
Security       Transition        Command–Afghanistan                 (CSTC-A)        are      responsible        for     implementing
effective internal controls and complying with laws and regulations governing contributions
from the NATO ANA Trust Fund to the ASFF.

OUSD(C)/CFO asserted that the funds received, obligated, and disbursed for NATO contributions
in FY 2010, FY 2011, and FY 2012 were presented fairly.2 See the attachment for the assertion
and financial schedule.  However, the supporting schedule3 provided by OUSD(C)/CFO reported
a material difference in obligations and disbursements.  Additionally, OUSD(C)/CFO was unable
to provide sufficient evidence, at the transaction level, to enable us to determine the accuracy
and completeness of the project-level information. This limitation precluded us from
determining whether material amounts of obligations and disbursements were fairly stated.

Because of the restriction on the scope of our examination discussed in the preceding
paragraph, the scope of our work was not sufficient to enable us to express, and we do not
express, an opinion on whether the financial schedule referred to above presents, in all


	1	
     Although titled “Financial Statement,” this document is a financial schedule illustrating the financial status (receipt, obligation, and
     disbursement) of the NATO ANA Trust Fund donations.
	2	
     The assertion did not identify the criteria NTM-A/CSTC-A used to prepare the financial schedule. However, according to OUSD(C)/CFO, the
     financial schedule was based on the Army’s March 31, 2013, Accounting Report (Monthly) 1002 report, which is supposed to be prepared in
     accordance with generally accepted accounting principles.
	 3	
     OUSD(C)/CFO provided a schedule of the funds received and obligated for FYs 2010, 2011, and 2012 by project.




                                                                                                                         Report No. DODIG-2014-046 │ 1
           material respects, receipts and expenditures of funds contributed to the NATO ANA Trust Fund
           and transferred to DoD for execution, in accordance with generally accepted accounting
           principles. In addition to our disclaimer of opinion on the financial schedule, we are including
           findings on internal controls and compliance with laws and regulations. These findings are
           based on our review of compliance with Office of Management and Budget Circular A-123, public
           law, and the Memorandum of Understanding governing the contributions to the NATO ANA
           Trust Fund. These findings are an integral part of our disclaimer of opinion on the financial
           schedule and should be considered in assessing the results of our work.

           In accordance with government auditing standards, we are required to report all deficiencies
           that are considered to be significant deficiencies or material weaknesses in internal control;
           fraud and noncompliance with provisions of laws or regulations that have a material effect on
           the presentation of the NATO ANA Trust Fund; any other instances that warrant the attention
           of those charged with governance; noncompliance with provisions of contracts or grant
           agreements; and abuse that has a material effect on the subject matter. We are also required to
           obtain and report the views of responsible officials concerning the findings, conclusions, and
           recommendations, as well as any planned corrective actions.

           We performed our examination to express an opinion on whether the NATO ANA Trust Fund
           Financial Schedule is presented in accordance with the criteria described above and not for the
           purpose of expressing an opinion on the internal controls or on compliance with laws and
           regulations and other matters; accordingly, we express no such opinions. Our examination
           disclosed certain findings that are required to be reported under government auditing standards
           and those findings, along with the views of responsible officials, are described in the attached
           findings on Internal Controls and Compliance with Laws and Regulations.




           	 Amy J. Frontz, CPA
           	 Principal Assistant Inspector General
           		 for Auditing

           Attachment:
           As stated




2 │ Report No. DODIG-2014-046
Internal Controls
Office of Management and Budget Circular A-123, “Management’s Responsibility for Internal
Control,” December 21, 2004, which implements the Federal Manager’s Financial Integrity
Act of 1982, as codified in section 3512, title 31, United States Code, requires management
to establish and maintain internal controls to achieve the objectives of effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and regulations.
Management should design financial internal controls to provide reasonable assurance that:

         •	 obligations and costs are in compliance with applicable laws;

         •	 funds are safeguarded against waste, loss, unauthorized use, or misappropriation; and

         •	 revenues and expenditures are properly recorded and accounted for to permit the
           preparation of accounts and reliable financial reports and to maintain accountability
           over assets.

On August 13, 2013, OUSD(C)/CFO asserted that $520.0 million in funds received, $331.2 million
in obligations, and $163.7 million in disbursements through March 31, 2013, for NATO
contributions received in FY 2010, FY 2011, and FY 2012, as reported in the financial schedule,
were presented fairly and that the accuracy and completeness of the financial schedule could
be verified by reviewing the schedules of supporting data as of March 31, 2013.

To determine whether OUSD(C)/CFO fairly presented the receipts and expenditures of the
NATO contributions, the audit team statistically sampled 32 of 64 projects, which included
$414.2 million of the $520.0 million contributed to the NATO ANA Trust Fund. For the
projects reviewed, the auditors determined there were adequate internal controls within the
cash collection process for the NATO contributions received.  However, the auditors identified
internal control deficiencies in other financial reporting processes.


Inadequate Controls
OUSD(C)/CFO and NTM-A/CSTC-A did not have adequate internal controls over the financial
reporting of the NATO ANA Trust Fund contributions to the ASFF to ensure the expenditures
reported in the financial schedule, as of March 31, 2013, were presented fairly.  We identified
internal control deficiencies in the financial reporting processes that, in combination, created
material weaknesses in the financial reporting of the NATO ANA Trust Fund contributions.




                                                                                     Report No. DODIG-2014-046 │ 3
           A material weakness is a deficiency, or a combination of deficiencies, in internal controls such
           that there is a reasonable possibility that a material misstatement of the entity’s financial
           statements will not be prevented, or detected and corrected on a timely basis. OUSD(C)/CFO
           and NTM-A/CSTC‑A’s lack of effective financial reporting processes has created material
           weaknesses in the internal controls over financial reporting.


           Financial Reporting Process
           OUSD(C)/CFO and NTM-A/CSTC-A personnel provided a project-level supporting schedule that
           did not reconcile to their financial schedule or to the accounting data for the funds obligated and
           disbursed as of March 31, 2013.  On October 8, 2013, OUSD(C)/CFO personnel provided a final
           version of the supporting schedule of funds status by project, which did not include $35.1 million4
           of the reported obligations and also did not include any of the $163.7 million in reported
           disbursements.  In addition, OUSD(C)/CFO personnel stated their basis for developing the
           financial schedule was the Accounting Report (Monthly) 1002, “Appropriation Status By Fiscal
           Year Program and Subaccounts,” (AR[M] 1002), a compilation of Army accounting data.  However,
           the supporting schedule did not reconcile to the AR(M) 1002 report.

           OUSD(C)/CFO is responsible for providing oversight of the ASFF program, including reviewing
           and approving the financial reports.  NTM-A/CSTC-A is responsible for management and execution
           of the program, including preparation of financial reports. To prepare the financial reports,
           NTM-A/CSTC-A relied on an unreliable manual tracking system rather than compiling available
           financial data from the Army’s accounting systems.  In developing its financial schedule for the
           assertion, OUSD(C)/CFO used the AR(M) 1002 report.  However, NTM-A/CSTC-A personnel used
           their own financial reports to generate the schedule provided to support the assertion, which
           resulted in $198.8 million in variances between the financial schedule and the supporting
           schedule: $35.1 million variance in reported obligations and $163.7 million variance in
           reported disbursements.


           Cost Transfers and Accounting Adjustments
           NTM-A/CSTC-A personnel initiated cost transfers5 and accounting adjustments to create
           $36.2 million in unsupported disbursements and $43.0 million in unsupported obligations in
           the ASFF, as of March 31, 2013. During the reporting period, NTM-A/CSTC-A executed
           obligations and disbursements using U.S.-appropriated funds6 and then reimbursed these funds


           	4	
                The $35.1 million obligation variance is the sum of the absolute values of the obligation variances found. The absolute value is the
                magnitude of a real number without regard to its sign.
           	 5	
                A cost transfer is the movement of costs between different accounts that affect the commitment, obligation, accrual, and disbursement of
                those accounts and the related funds.
           	6	
                Within the ASFF appropriation, DoD accounts for NATO contributed funds in one budget sub-activity group and the U.S.-appropriated funds
                in a separate budget sub-activity group.




4 │ Report No. DODIG-2014-046
with       NATO        contributions          by      initiating      cost      transfers       and      accounting         adjustments.
NTM-A/CSTC-A could not provide evidence of a valid obligation as defined by section 1501,
title 31, United States Code (31 U.S.C. §1501 [2013])7 for the obligations recorded under
the contribution fund. Because NTM-A/CSTC-A had already received the goods and services
under the U.S.-appropriated fund, they did not have evidence supporting the obligations and
the subsequent disbursements recorded under the contribution fund.

For example, donors agreed to provide contributions totaling $18.0 million, which went toward
a bulk-fuel project. The contributions for this project were received in February 2012.
However, NTM-A/CSTC-A had already executed the obligations and disbursements for this
bulk-fuel project between August 2011 and April 2012, using U.S.-appropriated funds.
Therefore, in June 2012, when NTM-A/CSTC-A received the contributions from U.S. Army
Central (ARCENT), they created an obligation in the contribution fund to reimburse the
U.S.-appropriated fund for the bulk fuel already provided. Because NTM-A/CSTC-A did not
issue a contract, order, services, or an agreement for goods or services, as defined by
31 U.S.C. §1501 (2013), this was not a valid obligation and was considered unsupported.

In addition, as part of the bulk-fuel project, NTM-A/CSTC-A personnel initiated a $6.3 million
obligation in the contribution fund as an accounting adjustment but did not use the obligation
to reimburse the U.S.-appropriated fund. Because the obligation was created without any
documentation to support it, as defined by 31 U.S.C. §1501 (2013), it was not a valid obligation
and was considered unsupported.  During a visit to Camp Eggers, Afghanistan, in May 2013,
the audit team informed NTM-A, NATO Financial Controller (NATO FINCON), personnel of this
outstanding adjustment. After the site visit, NATO FINCON personnel reallocated the $6.3 million
and put it to use before it could expire.


Expired Obligations
For 3 of the 32 sampled projects, NTM-A/CSTC-A overstated their FY 2010 obligations, totaling
$114.4 million, by $5.9 million. Specifically, NTM-A/CSTC-A reported $1.8 million in expired
obligations held by the U.S. Army Corps of Engineers (USACE) and $4.1 million in expired
obligations held by the Defense Security Cooperation Agency (DSCA) that should have been
deobligated before expiration.

              •	 NTM-A/CSTC-A used DD Form 448, “Military Interdepartmental Purchase Request,”
                  to request that USACE execute construction projects.  In April 2010, NTM-A/CSTC-A
                  requested that USACE build an engineering school using FY 2010 NATO ANA Trust


	7	
      Section 1501, title 31, United States Code (2013) states an amount should be recorded as an obligation of the U.S. Government only when
      supported by documentary evidence of contract, order, services, or an agreement for goods or services.




                                                                                                                           Report No. DODIG-2014-046 │ 5
                             Fund contributions for 1 of the 32 sampled projects. However, as of August 2013,
                             USACE still reported $1.8 million of these funds, which expired September 30, 2011,
                             as available for obligation.

                         •	 In addition, for 2 of the 32 sampled projects, NTM-A/CSTC-A transferred $8.3 million
                             in FY 2010 funding to DSCA on a Standard Form 1081, “Voucher and Schedule of
                             Withdrawals and Credits,” which created an obligation and disbursement in the
                             accounting records for the NATO ANA Trust Fund contributions. However,
                             DSCA’s accounting system as of June 2013 showed that $4.1 million remained
                             unobligated, even though the funds expired September 30, 2011.

           Although NTM-A/CSTC-A provided these funds to USACE and DSCA, NTM-A/CSTC-A should
           have had financial reporting processes in place to ensure that the accounting records
           accurately reflected the status of these funds.


           Documentation of Donor-Country Requirements
           For 1 of the 32 projects reviewed, NTM-A/CSTC-A could not provide hard copy
           documentation supporting that they received approval from Australian officials to redirect
           $36.7 million in donations to a similar project in a different province of Afghanistan. The ANA
           Trust Fund manager for NATO FINCON stated he received verbal approval from the
           Australian government. However, OUSD(C)/CFO and NTM-A/CSTC-A could not provide
           documentation supporting approval to change the caveat8 for the Australian contribution.
           Although NTM-A’s standard operating procedures (SOPs) address donor-nation caveats, they
           do not provide a process for obtaining and documenting caveat changes of donor-nation funds.


           Need for a Program Management Structure
           OUSD(C)/CFO and NTM-A/CSTC-A did not have adequate internal controls over the financial
           reporting for $520.0 million of NATO ANA Trust Fund contributions to the ASFF. This occurred
           because OUSD(C)/CFO, in coordination with NTM-A/CSTC-A, did not establish an effective
           NATO ANA Trust Fund program management structure ensuring program governance,
           assignment of responsibilities, and the development of sustainable processes and procedures
           for effective management and execution of the financial reporting of NATO ANA Trust Fund
           contributions. Specifically, the program management structure over the financial reporting of
           the NATO ANA Trust Fund did not:

                         •	 assign and define responsibilities of other executing organizations, as necessary for
                             the management and execution of the financial reporting;


           	8	
                 A caveat is the formal notice filed by donating nations limiting the use of the funds to specified purposes.




6 │ Report No. DODIG-2014-046
        •	 develop standard operating procedures detailing management and execution of
             financial reporting;

        •	 identify requirements for financial reports ensuring compliance with the terms
             and conditions of the memorandum of understanding governing the contributions
             to the NATO ANA Trust Fund; or

        •	 identify appropriate sources of information to build the financial reports, including
             necessary accounting data and hard copy documentation related to the collections,
             obligations, and expenditures by project of the NATO ANA Trust Fund contributions.

To   build    accurate    and   supported   financial   reports,   OUSD(C)/CFO,   in    coordination
with NTM-A/CSTC-A, requires accounting data and source documentation from multiple
DoD agencies. This includes, but is not limited to, the Defense Finance and Accounting
Service (DFAS), USACE, and DSCA. In response to concerns expressed by the audit team
about the lack of supporting documentation, OUSD(C)/CFO, in conjunction with NTM-A/CSTC-A
and DFAS, developed a working group that meets weekly to focus on the development and
sustainment of a supportable process for tracking NATO ANA Trust Fund collections and
disbursements through to mandated financial reports. This working group consists of personnel
from OUSD(C)/CFO, DFAS, NTM-A/CSTC-A, ARCENT, USACE, and DSCA.  Communication
among working-group members has led to better data sharing and should result in a more
sustainable process for future reporting requirements. However, additional work is necessary
to ensure obligations and costs are in compliance with applicable laws; funds are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are
properly recorded, accounted for, and reconciled.

OUSD(C)/CFO, in coordination with NTM-A/CSTC-A, did not develop formal processes and
procedures identifying responsibilities, specific data elements, and evidence needed to
support the financial reporting of the NATO ANA Trust Fund execution. At a minimum, these
processes and procedures should include the reconciliation of the project-level supporting
schedule to the accounting data on a quarterly basis. OUSD(C)/CFO should formalize and fully
document its financial reporting processes with these agencies and develop a memorandum
of understanding (MOU) that assigns responsibilities in the NATO ANA Trust Fund financial
reporting process. Additionally, OUSD(C)/CFO, in coordination with NTM-A/CSTC-A, should
develop overall standard operating procedures that document the entire NATO ANA Trust
Fund financial reporting process.


Unreliable Financial Reports
As a result of OUSD(C)/CFO’s and NTM-A/CSTC-A’s material internal control weaknesses over
the financial reporting of the NATO ANA Trust Fund contributions to ASFF, OUSD(C)/CFO and


                                                                                       Report No. DODIG-2014-046 │ 7
           NTM-A/CSTC-A did not have assurance that $35.1 million of the $331.2 million in obligations
           and any of the $163.7 million in disbursements in their financial report as of March 31, 2013,
           were accurate and complete. In addition, the lack of internal controls over the financial
           reporting process contributed to OUSD(C)/CFO and NTM-A/CSTC-A reporting $43.0 million
           in unsupported obligations and $36.2 million in unsupported disbursements, and overstating
           obligations by $5.9 million.  The inaccurate reporting of the obligations and disbursements may
           limit the ability of management and international partners to accurately assess the
           execution of current contributions, which could have an impact on future contributions.



           Management Comments on the Finding and
           Our Response
           The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, responding for the USD(C)/CFO,
           provided comments on the finding of the draft report. Those comments and our responses are
           discussed below. For the full text of the Deputy Comptroller’s comments, see the Management
           Comments section of the report.


           USD(C)/CFO Comments on Internal Controls
           The Deputy Comptroller wanted to re-emphasize that for each of the 32 projects reviewed
           in the examination, the receipt of funds was accurately recorded and applied toward contracts
           in accordance with donors’ intent.


           USD(C)/CFO Comments on Financial Reporting Process
           The Deputy Comptroller stated that due to personnel transition in the field, the manual system
           used to track individual donations by country had not been fully reconciled to include data for
           4 projects, totaling $35.1 million. He further stated that, despite the incomplete reconciliation,
           these projects were being monitored.

           In addition, the Deputy Comptroller stated that, while both OUSD(C)/CFO and NTM-A
           personnel were tracking overall disbursements, project-level disbursing data was not included
           in the quarterly reports until June 30, 2013.  According to the Deputy Comptroller, the tracking
           and reporting of disbursements at the project level has since been incorporated into the
            processes and will not be an issue for future reconciliations and reports.  Furthermore, the Deputy
           Comptroller stated that improvements to the accounting system, which will enable a greater
           degree of project-level data capture and increased data reconciliation processes, will improve
           the overall accuracy and efficiency of the ANA Trust Fund financial reporting.




8 │ Report No. DODIG-2014-046
USD(C)/CFO Comments on Cost Transfers
The Deputy Comptroller stated that the processing time of the ANA Trust Fund drawdowns led
to the use of the cost transfers in some instances. He also stated that, in a few cases, to ensure
requirements were fulfilled as quickly as possible, DoD ASFF resources were initially applied
toward the project until the contribution was fully processed and received. According to the
Deputy Comptroller, the reduced processing time and removal of national caveats through the
creation of pre-determined cost categories will prevent the need for cost transfers in the future.


USD(C)/CFO Comments on Expired Obligations
The Deputy Comptroller stated OUSD(C)/CFO and NTM-A personnel worked with DSCA and
the individual program management offices personnel to ensure that any residual funds, once
the project is completed, are returned and made available for use toward other valid Afghan
National Security Forces requirements. He also stated that DSCA personnel recently provided
NTM-A personnel with access to their accounting systems to improve visibility and oversight.
According to the Deputy Comptroller, these steps will ensure all funds are appropriately applied
to the assigned project or realigned against other approved requirements in a timely manner.


Our Response
The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, stated in his response that for each
of the 32 projects reviewed for this examination, the receipt of funds was accurately recorded.
However, because the examination resulted in a disclaimer of opinion, the auditors could not
determine whether the collections, obligations, and disbursements were presented fairly and did
not conclude that the receipt of funds was accurately recorded. The auditors did determine that
the internal controls within the cash collection process for the NATO contributions received were
adequate. The improvements identified should improve the internal controls and processes for
recording obligations and disbursements of the NATO contributions. The effectiveness of the
implementation will be determined when the next examination is conducted.



Recommendations, Management Comments, and
Our Response
Redirected Recommendations
As a result of management comments, we redirected all recommendations reflecting
NTM-A/CSTC-A, to reflect only CSTC-A.       According to the U.S. Army Commanding General,
CSTC-A, the recommendations fall under the responsibility of only CSTC-A.




                                                                                    Report No. DODIG-2014-046 │ 9
           Recommendation 1
           We recommend the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD,
            develop a memorandum of understanding with the Commanding General, Combined
            Security Transition Command–Afghanistan, the Director, Defense Finance and Accounting
            Service, the Commanding General, U.S. Army Corps of Engineers, and the Director, Defense
            Security Cooperation Agency, to document each organization’s responsibilities in the North
            Atlantic Treaty Organization Afghan National Army Trust Fund financial reporting process.


           USD(C)/CFO Comments
           The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, responding for the USD(C)/CFO,
            agreed with the recommendation and stated that OUSD(C)/CFO personnel will work with
            counterpart organizations to develop and implement the recommended MOU to formalize the
            coordination process now underway. OUSD(C)/CFO expects to publish the MOU in April 2014.

           CSTC-A Comments
           Although not required to comment, the U.S. Army Commanding General, CSTC-A, agreed with
            the recommendation and stated that a draft MOU was almost completed in December 2013, but,
            due to the fielding of the General Fund Enterprise Business System, the new accounting and
            financial management system, in January 2014, the new MOU will not be completed until the
            system is fielded. Once the system is fielded, CSTC-A, NATO ANA Trust Fund Office, will revise
            the draft MOU to account for the changes in the financial management system and document the
            new procedures. CSTC-A personnel, in coordination with OUSD(C)/CFO, NATO, SHAPE, DFAS,
            and ARCENT personnel, plan to complete the new MOU by March 31, 2014. For the full text of
            the Commanding General’s comments, see the Management Comments section of the report.

           DFAS Comments
           Although not required to comment, the Deputy Director, DFAS-Indianapolis, responding for
            the Director, DFAS-Indianapolis, agreed with the recommendation and stated DFAS-Indianapolis
            personnel are already working closely with other stakeholder organizations to document
            responsibilities in the financial reporting process. For the full text of the Director’s comments,
            see the Management Comments section of the report.

           Our Response
           Comments from the Deputy Comptroller addressed all of the specifics of the recommendation, and
            no additional comments are required.




10 │ Report No. DODIG-2014-046
Recommendation 2
We recommend the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD,
in   coordination        with   Commanding     General,    Combined     Security     Transition
Command–Afghanistan, develop and implement standard operating procedures documenting
the North Atlantic Treaty Organization Afghan National Army Trust Fund financial reporting
process, including the reconciliation of the project-level supporting schedule to the accounting
data on a quarterly basis.


USD(C)/CFO Comments
The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, responding for the USD(C)/CFO,
agreed with the recommendation and stated that one way to address the constant turnover
associated with a contingency operation is to have well-defined and achievable processes in
place. He stated that, in conjunction with finalizing the MOU, OUSD(C)/CFO personnel will
develop a SOP as a supplement to the MOU currently in development. OUSD(C)/CFO expects
to publish the new SOP in April 2014.

CSTC-A Comments
Although not required to comment, the U.S. Army Commanding General, CSTC-A, agreed with
the recommendation and stated that the best way to address the constant turnover associated
with a contingency operation is to have simple and codified processes in place. He stated that
once OUSD(C)/CFO completes the interagency MOU, and NATO, SHAPE and the United States
finalize the new tri-lateral NATO ANA Trust Fund MOU, the NATO ANA Trust Fund Office will
complete a new SOP as a supplement to the two MOUs in development. The SOP will
incorporate all the specified and implied tasks, processes, and procedures, and include the
reconciliation of the project-level supporting schedule to the accounting data on a quarterly
basis. The Commanding General stated the NATO ANA Trust Fund Office will complete the
SOP by April 15, 2014.

Our Response
Comments from the Deputy Comptroller addressed all of the specifics of the recommendation, and
no additional comments are required.




                                                                                 Report No. DODIG-2014-046 │ 11
           Compliance With Laws and Regulations
           In September 2009, the United States, as represented by the DoD, entered into a “Memorandum
           of Understanding Among the United States of America, and North Atlantic Treaty Organization,
           and Supreme Headquarters Allied Powers Europe [SHAPE] Regarding Management and
           Administration of Trust Fund Donations For Support and Sustainment of the Afghanistan
           National Army,” (MOU) defining the organizational and management processes established
           between NATO and the United States. The MOU defines the roles and responsibilities of SHAPE
           and the United States in managing and executing the funds transferred from the NATO ANA
           Trust Fund to the ASFF appropriation, and it specifies the arrangements for funds transfer,
           contracting, monitoring, evaluation, reporting, accounting, and auditing.

           In addition, the MOU states that execution of the NATO ANA Trust Fund must adhere to the
           national caveats under which the funds were donated. In reviewing the 32 projects, we did not
           identify any instances where the donor country contributions were applied to contracts that
           conflicted with the donors’ intent.

           The NATO ANA Trust Fund contributions were transferred into the ASFF based on the
           U.S. Appropriations Act for FYs 2010, 2011, and 2012. For example, Public Law 112-74,
           “Consolidated Appropriations Act, 2012,” December 23, 2011, stated that contributions of
           funds for the purposes provided herein from any person, foreign government, or international
           organization may be credited to the ASFF and used for such purposes.


           Noncompliance With Memorandum of Understanding
           OUSD(C)/CFO and NTM-A/CSTC-A did not always comply with the MOU when executing
           projects funded by the NATO ANA Trust Fund.                  For 6 of the 32 projects reviewed,
           NTM-A/CSTC-A personnel did not adhere to the MOU when they obligated $19.1 million
           before receiving the donor funds from SHAPE. The MOU, Section 6-2, states that U.S. authorities
           are not to enter into obligations until the funds are received into U.S. accounts (ASFF).
           The Director, NATO FINCON, stated that due to the length of time to receive funds from SHAPE,
           and     mission       requirements    that   required   immediate   action,   NATO    FINCON   used
           U.S.‑appropriated funds until the NATO ANA Trust Fund contributions were available.
           To compensate for the time delays, NATO FINCON used a system of cost transfers and
           accounting adjustments to reimburse the U.S. appropriations with contribution funds. As a
           result, NTM-A/CSTC-A did not comply with the MOU in executing $19.1 million in funds.
           To ensure compliance with the MOU, OUSD(C)/CFO, in coordination with NTM-A/CSTC-A,
           should improve processes to streamline the receipt of funds so the cost transfer and accounting
           adjustment processes are not necessary. In addition, OUSD(C)/CFO, in coordination with
           NTM-A/CSTC-A, should implement a process to notify SHAPE when project execution needs to
           begin prior to receipt of NATO contributions in order to meet mission requirements.


12 │ Report No. DODIG-2014-046
Noncompliance With Public Law 112-74
OUSD(C)/CFO did not comply with Public Law 112-74 when executing projects funded by
the NATO ANA Trust Fund. In September 2013, the DoD returned $145.6 million in FY 2012
NATO ANA Trust Fund contributions to SHAPE without notifying U.S. congressional defense
committees, as required by Public Law 112‑74. Public Law 112-74 states that the Secretary
of Defense must      notify congressional defense committees in writing of the receipt and
obligation of contributions to the ASFF and the transfer of funds between budget sub-activity
groups in excess of $20 million. In addition, under this public law these funds were available
for obligation until September 30, 2013. NTM-A/CSTC-A personnel determined that they
would not be able to obligate the $145.6 million in funds prior to September 30, 2013.
Therefore, NTM-A/CSTC-A took action to return the funds to SHAPE so the funds would be
available for use in FY 2014 or future years. To complete the return, ARCENT personnel
transferred the $145.6 million from the NATO contribution fund budget sub-activity group
within the ASFF appropriation to a new budget sub-activity group. Upon completion of this
transfer, NTM-A/CSTC-A personnel certified vouchers that authorized DFAS to return the funds
to SHAPE and the funds were subsequently disbursed by DFAS. However, the OUSD(C)/CFO
did not notify Congress that it was transferring $145.6 million between budget sub-activity
groups or that it was disbursing the unused contributed funds to SHAPE. By not notifying the
congressional defense committees, OUSD(C)/CFO did not comply with public law and limited
Congress’ ability to make informed decisions about the projects funded under the ASFF.

After the review, the audit team spoke with OUSD(C)/CFO personnel to re-emphasize the need
to notify Congress of the return of funds. In November 2013, OUSD(C)/CFO notified Congress
of the return of the $145.6 million in funds. As a result, we are not making a recommendation
regarding congressional notification.


Disclosure of Subsequent Event
NTM-A/CSTC-A’s financial schedule did not disclose that a material portion of the
reported receipts, totaling $145.6 million, was scheduled to be returned to NATO
in less than 60 days. According to OUSD(C)/CFO personnel, as of March 31, 2013,
NTM-A/CSTC-A personnel were aware of available funds, but did not know the total amount
of funds that needed to be returned to SHAPE. However, NTM-A/CSTC-A personnel did know
of the $145.6 million in funds when they issued their financial schedule of funds received,
obligated, and disbursed to NATO and SHAPE on August 4, 2013, and when OUSD(C)/CFO
issued the assertion package to the DoD Office of the Inspector General. Although OUSD(C)/CFO
and   NTM-A/CSTC-A       personnel      knew   that   management   was   preparing   to    return




                                                                                 Report No. DODIG-2014-046 │ 13
           $145.6 million of the reported receipts, OUSD(C)/CFO and NTM-A/CSTC-A did not
           disclose the return on their financial schedule or their assertion because they did not
           agree that disclosure of the returned funds was necessary.

           The $145.6 million in returned funds was material to the NATO ANA Trust Fund
           contributions received, as it represented 43 percent of the $341.0 million in FY 2012 funds
           received and 28 percent of the $520.0 million in FY 2010 through FY 2012 funds received.
           As a result of the materiality of the returned funds and the potential consequence that
           returning these funds may have on future contributions of the contributing nations,
           OUSD(C)/CFO and NTM-A/CSTC-A should disclose the return of these funds in the financial
           schedule.9 Without this disclosure, readers of the financial schedule have limited knowledge of
           how effectively the NATO ANA Trust Fund contributions were executed and a limited basis
           for deciding whether to make future contributions. In the third-quarter report to
           NATO, September 30, 2013, OUSD(C)/CFO and NTM-A/CSTC-A disclosed the return of
           $145.6  million in funds. To ensure that NATO and international partners relying on the
           financial schedule can make informed decisions and judgments about their contributions,
           OUSD(C)/CFO, in coordination with NTM-A/CSTC-A, should make a similar disclosure of the
           return of the $145.6 million in funds on their published financial schedule for the period ending
           March 31, 2013.



           Management Comments on the Finding and
           Our Response
           DFAS Comments
           Although not required to comment, the Deputy Director, DFAS-Indianapolis, responding for
           the Director, DFAS-Indianapolis, provided comments on the finding. He requested that the
           report be adjusted to reflect that NTM-A/CSTC-A personnel certified vouchers authorizing DFAS
           to return funds to SHAPE and that DFAS subsequently disbursed the funds.


           Our Response
           The audit team agreed with the requested change and updated the report accordingly.




           	9	
                 As defined by Statement of Federal Financial Accounting Standards 39, “Subsequent Events: Codification of Accounting and Financial
                 Reporting Standards Contained in the AICPA Statements on Auditing Standards,” August 4, 2010, a subsequent event is an event or
                 transaction occurring after the end of the reporting period but before the financial report is issued. A subsequent event should be
                 disclosed if it will affect the judgments and decisions of those relying on the financial report.




14 │ Report No. DODIG-2014-046
Recommendations, Management Comments, and
Our Response
Recommendation 3
We recommend the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD, in coordination with the Commanding General, Combined Security Transition
Command–Afghanistan:

        a.	 Improve processes to streamline the receipt of funds into the contribution fund so
           the cost transfer and accounting adjustment processes are not necessary.


USD(C)/CFO Comments
The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, responding for the USD(C)/CFO,
agreed with the recommendation and stated that OUSD(C)/CFO and NTM-A/CSTC-A have
undertaken an arduous review of processes used to request, receive, and apply contributions.
He stated that negotiations were underway to implement future international support through
five pre-agreed funding categories. The Deputy Comptroller added that this revised approach
should reduce the time from requirement validation to contract award.       He also stated that
OUSD(C)/CFO has modified its process for funds notification and transfer, resulting in nearly
65-percent reduction in processing time.


CSTC-A Comments
Although not required to comment, the U.S. Army Commanding General, CSTC-A, agreed with
the recommendation and stated that, due to the nature and complexity of the drawdown
process, CSTC-A will not be able to completely eliminate accounting adjustments, especially given
the actual price fluctuations in the contracting process. He also stated that delays outside of
CSTC-A’s control resulting from the national caveat and re-caveat issues would prevent this
from being fully realized. The Commanding General added that OUSD(C)/CFO, CSTC-A, and
NATO ANA Trust Fund Office personnel have worked extensively to modify processes, resulting
in a 65-percent decrease in processing time of drawdowns that has greatly reduced the number
of accounting adjustments in the last 6 months.


Our Response
Comments from the Deputy Comptroller addressed all of the specifics of the recommendation, and
no additional comments are required.




                                                                                  Report No. DODIG-2014-046 │ 15
                      b.	Implement a process to notify the Supreme Headquarters Allied Powers Europe
                         when project execution needs to begin before receiving North Atlantic Treaty
                         Organization contributions, in order to meet mission requirements.


           USD(C)/CFO Comments
           The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, responding for the USD(C)/CFO,
           agreed with the recommendation, stating that, along with NTM-A/CSTC-A, OUSD(C)/CFO is
           developing a new Annual Implementation Plan, which will identify when funds are needed
           for contracting. This, along with the use of the five pre-agreed funding categories and the
           quarterly reports, should provide visibility to contributors of the projects.


           CSTC-A Comments
           Although not required to comment, the U.S. Army Commanding General, CSTC-A, agreed with
           the recommendation and stated that, along with OUSD(C)/CFO, CSTC-A is working on a new
           report called the Annual Implementation Plan, which will identify when the NATO ANA Trust
           Fund Office needs funds from SHAPE for contracting. He stated that this plan, due December 1
           of each year, along with quarterly reports, will provide visibility to SHAPE in a timely manner.


           Our Response
           Comments from the Deputy Comptroller addressed all of the specifics of the recommendation, and
           no additional comments are required.

                      c.	 Disclose the return of the $145.6 million in funds on the published financial schedule
                         for the period ending March 31, 2013, to ensure that the North Atlantic Treaty
                         Organization and international partners relying on the financial report can make
                         informed decisions and judgments about their contributions.


           USD(C)/CFO Comments
           The Deputy Comptroller (Program/Budget), OUSD(C)/CFO, responding for the USD(C)/CFO,
           partially agreed with the recommendation and stated that NTM-A personnel have fully disclosed
           the return of the funds with international partners at numerous meetings, and the return of
           the $145.6 million will again be highlighted in the 2013 Annual Report. OUSD(C)/CFO personnel
           believe no further action is required, as the return of funds has been fully communicated.

           In addition, the Deputy Comptroller stated that to address this issue, and related
           congressional notification issues discussed in the report, OUSD(C)/CFO personnel sought
           and received legislative relief from the 2-year limitation on the availability of ANA Trust Fund




16 │ Report No. DODIG-2014-046
contributions administered through the ASFF. He stated that the Trust Fund contributions to
the ASFF in FY 2013 and beyond are no longer subject to expiration and are now administered
as “no-year” funds within the DoD accounting system.


CSTC-A Comments
Although not required to comment, the U.S. Army Commanding General, CSTC-A, disagreed
with the recommendation and stated the return was disclosed in the September 2013
NATO ANA Trust Fund Quarterly Report to the donor nations, has been briefed during
meetings in theater, and will be shown in the December 2013 NATO ANA Trust Fund Annual
Report.   He stated that, although the return of funds significantly changed the 2012 fiscal
picture, the timing of the event and the fact that the nations have already been notified of the
return make the recommendation unnecessary. The Commanding General believes the
international community has been properly and fully notified without republication of the
March 2013 financial statement.


Our Response
While the Deputy Comptroller partially agreed with the recommendation, his comments
addressed all of the specifics of the recommendation, and no additional comments are required.
OUSD(C)/CFO personnel informed us that they do not plan to publish a separate final financial
schedule with the audit opinion. The financial schedule is included in the Attachment of this
report and does not have the disclosure.




                                                                                 Report No. DODIG-2014-046 │ 17
           Attachment
           Deputy Comptroller Assertion and NTM-A/CSTC-A
           Financial Schedule




18 │ Report No. DODIG-2014-046
Deputy Comptroller Assertion and NTM-A/CSTC-A
Financial Schedule (cont’d)




                                                Report No. DODIG-2014-046 │ 19
           Management Comments
           Office of the Under Secretary of Defense (Comptroller)/
           Chief Financial Officer, DoD




20 │ Report No. DODIG-2014-046
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD (cont’d)




                                                    Report No. DODIG-2014-046 │ 21
           Office of the Under Secretary of Defense (Comptroller)/
           Chief Financial Officer, DoD (cont’d)




22 │ Report No. DODIG-2014-046
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD (cont’d)




                                                    Report No. DODIG-2014-046 │ 23
           Office of the Under Secretary of Defense (Comptroller)/
           Chief Financial Officer, DoD (cont’d)




24 │ Report No. DODIG-2014-046
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD (cont’d)




                                                    Report No. DODIG-2014-046 │ 25
           Combined Security Transition Command-Afghanistan
                                                                Final Report
                                                                 Reference




                                                                    Revised
                                                              Recommendations 1,
                                                                 2, 3.a, 3.b, 3.c.




26 │ Report No. DODIG-2014-046
Combined Security Transition Command-Afghanistan (cont’d)




                                                 Report No. DODIG-2014-046 │ 27
           Combined Security Transition Command-Afghanistan (cont’d)




28 │ Report No. DODIG-2014-046
Defense Finance and Accounting Service-Indianapolis




                                                      Report No. DODIG-2014-046 │ 29
           Defense Finance and Accounting Service-Indianapolis (cont’d)
                                                                 Final Report
                                                                  Reference




                                                                 Revised, Page 13




30 │ Report No. DODIG-2014-046
Acronyms and Abbreviations
         ANA Afghan National Army
     ARCENT U.S. Army Central
        ASFF Afghanistan Security Forces Fund
      CSTC-A Combined Security Transition Command–Afghanistan
        DFAS Defense Finance and Accounting Service
        DSCA Defense Security Cooperation Agency
     FINCON Financial Controller
        MOU Memorandum of Understanding
       NATO North Atlantic Treaty Organization
      NTM-A NATO Training Mission–Afghanistan
OUSD(C)/CFO Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
      SHAPE Supreme Headquarters Allied Powers Europe
         SOP Standard Operating Procedure
       U.S.C. United States Code
      USACE U.S. Army Corps of Engineers




                                                                                             Report No. DODIG-2014-046 │ 31
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
